    OFFICE OF INSPECTOR GENERAL




u.s. INTERNATIONAL TRADE COMMISSION'S
       ADMINISTRATION OF
 WESTLAW® LEGAL RESEARCH SERVICE


            Inspection Report
              OIG-IR-02-02




                                September 25, 2002
U.S. International Trade Commission's Administration of                          OIG-IR-02-02
Westlaw" Legal Research Service




TABLE OF CONTENTS

I.     INTRODUCTION                                                                        1

II.    OBJECTIVES                                                                         2

III.   METHODOLOGY & SCOPE                                                                2

IV.    FINDINGS                                                                           2

V.     CONCLUSIONS                                                                        7

VI.    SUGGESTIONS                                                                         7




                                                          Office ofInspector General
                                                                           :1
                                                                u.s: lntemstiorul Trade Commission
u.s. International Trade Commission's Administration of                                          OIG-IR-02-02
Westlaw" Legal Research Service

I.       INTRODUCTION

Westlaw" is an online legal research service provided by West Group, a division of the Thomson
Corporation. Since Fiscal Year (FY) 2000, the International Trade Commission (Commission)
had subscribed to Westlaw" under a Federal Library and Information Network (FEDLINK1)
fixed price agreement. The fixed price allowed unlimited access to certain databases and
services. Access to databases and services not included in the fixed price plan were billed at an
hourly/transactional rate. The fixed price for Calendar Year (CY) 2002 was $7,303 per month,
or $87,636 for the year. For a given calendar year, the fixed price was calculated by comparing
the previous calendar year's fixed price with the actual charges that would have been incurred
under the FEDLINK hourly/transactional pricing rates.

To use Westlaw", a Commission employee needed an assigned Westlaw" password.i He or she
could then access Westlaw" from his or her computer using either Westmate" software or via the
Westlaw" website.' Of the approximately 365 Commission employees, 90 to 100 (about 27
percent) of them were in the legal field and were issued Westlaw" passwords."

The Law Library administered the Commission's Westlaw" usage.' The staff were responsible
for managing passwords, providing assistance to Commission employees using the service, and
being the contact people for the Westlaw" representative. The Law Librarian was responsible for
reviewing monthly Westlaw" invoices.

Before FY 2000, the Commission had been billed for all Westlaw" usage under
hourly/transactional rates. During that time, Westlaw" was accessed only from dedicated
stations located in the Law Library, the Office of Unfair Import Investigations, the Office of the
Administrative Law Judges, the Office of Inspector General, and the Office of Tariff Affairs and
Trade Agreements. In 1999, when West Group offered the option of switching to a fixed price
plan, the Commission accepted for two reasons: (1) anticipated savings and (2) the opportunity
for any Commission employee needing to do research on it to have Westlaw" at the employee's
workstation.

To avoid problems associated with possible delays in the annual budget process, the Commission
based the Westlaw" agreements on the calendar year instead ofthe fiscal year. Therefore, the

IpEDLINK is a network for purchasing, training, and resource sharing among federal libraries and information
centers.

2In
  this context, "employee" was intended to include all Commission staff including volunteers, temporary/summer
employees, and contractors.

3Westlaw ' s   website address is http://www.westlaw.com.

4There was no additional charge for adding new users if theywere added to one of the six established offices
(Administrative Law Judges' Office, Finance and Budget Office, Inspector General's Office, General Counsel's
Law Library, Tariff Affairs Office, and Unfar Import Investigation Division). However, West Group would charge
$115 per month per password issued at any new location.

5Separate from Library Services, the Law Library was gaffed by a Law Librarian and a Librarian.


                                                                          Office ofInsoector General
                                                                                            ;i

                                                                                 U.5: Inccmationsl Trade Commission
                                                            1
u.s. International Trade Commission's Administration of                             OIG-IR-02-02
Westlaw" Legal Research Service

FY 2000 fixed price agreement included the first 3 months of FY 200 1.

II.    OBJECTIVES

We reviewed the Commission's: (1) actual Westlaw" usage in relation to the annual fixed price;
(2) use of databases and services not included in the fixed price; and (3) procedures for
deactivating separating employees' Westlaw" passwords.

III.   METHODOLOGY AND SCOPE

We interviewed the Commission's Law Librarian in the Law Library and the Personnel
Information and Security Assistant in the Office of Personnel. We also reviewed the Westlaw"
annual agreements and monthly invoices for the current and prior calendar years and the weekly
reports on resource transactions from the Office of Administration.

Our inspection, conducted from June 6, 2002 through June 28, 2002, was in accordance with the
Quality Standards for Inspections of the President's Council on Integrity and Efficiency.

IV.    FINDINGS

       A.     The Effect of Actual Westlaw@ Usage on the Annual Fixed Price

As summarized in Table 1 on the next page, Westlaw" usage and costs rose and fell together in
the years prior to FY 2000; however, usage costs had increased sharply and annual costs had
risen consistently since the Commission switched to the fixed price plan in FY 2000.




                                                               Office o/Insvector General
                                                                               :1
                                                                    us Intcrnscional Tadc Comnnssion
                                              2
U.S. International Trade Commission's Administration of                                                         OIG-IR-02-02
Westlaw" Legal Research Service

             Table 1. Commission's Annual Cost and Actual Usage for Westlaw"


  $400,000



  $350,000



  $300,000



  $250,000

                                                                                                                       .                               .-            oJ

                                                                                                               ~
                                                                                                                ~ - ~ ~ ~ ---~----~--
                                                                                                               -+- Annual Cost
  $200,000
                                                                                                                ____ Actual Usage Cost
                                                                                                                           -------------_   ...   _-   _. __
                                                                                                                                                           ._-----~---




  $150,000                                                    FY 1995 cost data were
                                                              missing from the Law
                                                              Librarian's records.
  $100,000                         - - - - - - - - - - - - L...-                       --'




   $50,000




   •   FY 2000, CY 200 I, and CY 2002 annual cost figures included ancillary charges from the
       use of databases and services that were excluded from the fixed price plan.
   •   FY 2000 and CY 200 I actual usage cost figures were based on the monthly average that Westlaw"
       used to calculate the fixed price for the succeeding year.
       CY 2002 actual usage cost figures were not available.


Under the fixed price plan, the Commission's actual Westlaw" usage affected annual costs.
West Group calculated the Commission's fixed price for a given calendar year by comparing the
previous year's fixed price with the actual charges that would have been incurred under the
FED LINK hourly/transactional pricing plan during that same calendar year. First, West Group
calculated the monthly average of the Commission's actual Westlaw" charges at the FEDLINK
hourly/transactional rates during the first 9 months of the prior calendar year. Next, the monthly
average of actual charges from the prior calendar year was divided by the prior calendar year's
monthly fixed price. Finally, a percent increase was determined as set out in Table 2 on the next
page.




                                                                                         Deice ofInspector General
                                                                                                          1.
                                                                                             U.5~   Intcmstional TD1dc Commission
                                                                   3
u.s. International Trade Commission's Administration of                                 OIG-IR-02-02
Westlaw" Legal Research Service

                              Table 2. Annual Percent Increase

                   Monthly Average of Actual Charges                            Percent
                      Divided by Monthly Fixed Price                            Increase
        Less than or equal to 1.0                                                 0.0%
        Greater than 1.0 but less than 1.5                                         5.0%
        Equal to or greater than 1.5 but less than 2.0                             7.5%
        Equal to or greater than 2.0 but less than 3.0                            10.0%
        Equal to or greater than 3.0 but less than 4.0                             12.5%
        Equal to or greater than 4.0 but less than 5.0                             15.0%
        Equal to or greater than 5.0 but less than 6.0                             17.5%
        Equal to or greater than 6.0                                              20.0%

For example, in order to calculate the CY 2001 fixed price, West Group determined that from
October 1999 to June 2000, the Commission would have averaged $21,359 per month in actual
charges. By dividing the monthly average with the FY 2000 fixed price of $5,644 per month,
West Group calculated that the FY 2000 actual charges were 3.78 times the FY 2000 fixed price.
According to the terms of the fixed price plan summarized in the table above, the CY 2001 fixed
price would be 12.5 percent higher than the FY 2000 fixed price. The CY 2001 fixed price was
calculated to be $6,350 per month, or $76,200 for the entire year.

In order to calculate the CY 2002 fixed price, West Group determined that from January 2001 to
September 2001, the Commission would have been billed an average of $28,366 per month.
This was 4.4 times the CY 2001 fixed price of$6,350 per month. Accordingly, the CY 2002
fixed price was $7,303 per month or $87,636 for the entire year, which is a 15 percent increase
over the CY 2001 fixed price.

Holding constant the CY 2001 monthly average of $28,366 of actual usage, Table 3 on the next
page illustrates that the projected annual fixed price of Westlaw" for the next 5 years will grow
from $87,636 to $150,984 (72 percent increase) if the amount of usage remains static.




                                                                 Oflice ofInsoector General
                                                                                   1
                                                                      us Interrurional Trode C0I111nISSIOn
                                                4
u.s. International Trade Commission's Administration of                                             OIG-IR-02-02
Westlaw" Legal Research Service



          Table 3. Projected Fixed Price for Westlaw" Assuming No Increase in Usage



    $160,000   I

    $140,000   i




    $120,000


    $100,000


     $80,000
                                                                                          iJ Projected Annual
     $60,000
                                                                                             Fixed Price
                                                                                      1             _

     $40,000


     $20,000


          $0
                   CY 2002   CY 2003    CY 2004   CY 2005   CY 2006      CY 2007
                              Up 12.5 % Up 12.5 % Up 12.5 %  Up 10 %      Up 10 %




The annual fixed price percent increases are a function of actual Westlaw" usage. The Law
Librarian who administered the Commission's Westlaw® usage had a system for reducing actual
charges that would be incurred under the FEDLINK hourly/transactional pricing plan. First, he
periodically reminded Commission employees-as he did by email on June 21, 2002 6-to use
Westlaw" responsibly and prudently. Second, he checked monthly invoices for abnormally large
usage and followed up with the users. Third, everyone's copy of the Westmate" software was set
to hourly billing and per document printing which the Law Librarian deemed most cost efficient.

These same controls did not apply to employees that used the Westlaw" website. Also, after 7
minutes of non-use, the Westmate" software was set to log off whereas the Westlaw" website
was set to log off after 15 minutes of non-use when billing transactionally and after 7 minutes
when billing hourly. In commenting on our draft report, the General Counsel informed us that
all Westlaw" accounts are how set for hourly billing whether through Westmate" or
Westlaw.com.

         B.          Use of Databases and Services Not Included in the Fixed Price Plan

Access to those databases and services not included in the fixed price plan was billed at an
hourly/transactional rate. However, the practice was for the Law Librarian and the librarian to

6 The Law Librarian was not able to locate copies of other reminders dating from the switch to the fixed price plan
through June 21, 2002. Before the switch, the Law Librarian sent out more frequent memoranda about WestlaJ-<l
usage.

                                                                             Office ofInspector General
                                                                                               1-
                                                                                  us. Intemstsonsl TI~J(fc Comnnss/OJJ
                                                        5
U.S. International Trade Commission's Administration of                                 OIG-IR-02-02
Westlaw" Legal Research Service

conduct all such research because only their passwords had access to these databases and
services for which ancillary charges totaled $212.72 in CY 2001.

Although OIG attempts failed to access the excluded databases, CY 2001 monthly invoices
showed that one Commission employee, other than the two librarians, accessed an excluded
database on September 5, 2001, and November 6, 2001. Even though the resulting ancillary
charges were insignificant ($8.57), the apparent vulnerability could permit other employees to
run up excessive ancillary expenses.

          c.     Procedures for Deactivating Passwords of Separating Employees

The Law Library staff obtained passwords for new Commission employees and deactivated them
for separating employees. At his request, West Group periodically faxed a list of passwords that
the librarian updated manually.

Employees separating from the Commission were supposed to complete a clearance worksheet
from the Personnel Office. Failure to do so could mean the separating employee might not
receive a leave check or personnel action form. In the event that the employee failed to complete
the clearance worksheet, the Personnel Office would ask the office to which the person had been
assigned to file it for the person.

The Law Library was a required stop on the clearance worksheets. The only official notice that
the Law Librarian received, the worksheet alerted the librarian to deactivate the employee's
password. If for some reason a password was not deactivated during the clearance process, the
librarian would hope to discover the problem when he reviewed either the monthly invoices or
his list of passwords.

Every week, the Director, Office of Administration, distributed a memorandum that reported,
among other things, the employees who had separated from the Commission during the prior
week. This memorandum was distributed to the Secretary, the Inspector General, the General
Counsel, and the directors of all the Commission Offices. The Law Librarian commented that he
was unaware of the memorandum and thought he would find it useful in reviewing the monthly
invoices and his password list for passwords that should have been deactivated earlier.

Each monthly Westlaw" invoice listed only the users who actually accessed Westlaw@ that
month. A comparison of the weekly reports from November 2001 to April 2002 and the monthly
Westlaw" invoices from December 2001 to May 2002 did not reveal any Westlaw" access by
separated employees.

If, hypothetically, an employee were to have access to excluded databases and services, failure to
deactivate his or her password could expose the Commission to the risk of being billed for both
intentional and unintentional unauthorized use. Unauthorized use of included databases and
services would affect costs because each year the fixed price was calculated by comparing the
previous year's fixed price with the actual charges that would have been incurred under the
FEDLINK hourly/transactional pricing plan.



                                                                Office ofInsoector General
                                                                                  1-
                                                                      u.s. Inccrrutionsl Trade   Commission
                                               6
U.S. International Trade Commission's Administration of                                      OIG-IR-02-02
Westlaw" Legal Research Service

V.          CONCLUSIONS

The Commission had experienced a substantial increase in actual Westlaw" usage since
switching to the fixed price plan in FY 2000. Because West Group used the 9-month average of
the prior calendar year's actual Westlaw® usage to determine the percentage increase for a given
calendar year's fixed price, the Commission's actual Westlaw" usage directly affected costs. If
Commission employees continue to use Westlaw" in the same manner as they did in CY 2001,
the Commission may expect 12.5 percent annual increases in the fixed price for CY 2003
through CY 2005 (See Table 3, page 5).

Otherwise, the Commission satisfactorily administered Westlaw" usage. Restricted access to
databases excluded from the fixed price plan adequately controlled their use. The same likely
would be true of the excluded services if West Group similarly restricted access to them. While
the inspection uncovered two incidents of an employee, other than Law Library staff, accessing
an excluded database, these incidents were isolated. Finally, the clearance process adequately
ensured deactivation of separating employees' passwords.

VI.         SUGGESTIONS

As a result of our findings and conclusions, we suggested that:

      ~     The Law Librarian perform a cost benefit analysis of the fixed price plan for Westlaw".
            Included in the analysis should be the issue of accessing materials through Westlaw" that
            are also available in the Law Library.

      );>   The Law Librarian institute a more formal awareness program for the 90 to 100
            Commission employees with workstation access to Westlaw", The program could
            consist of periodic training sessions and emails that remind Westlaw" users of ways to
            keep Westlaw" usage to a minimum.

      );>   The Director, Office of Administration, add the Law Library to the distribution list for the
            weekly memoranda entitled "Report on Certain Resource Transactions." The
            memoranda could serve as a method of verifying that the passwords of separated
            employees were deactivated.

The General Counsel agreed with our suggestions and responded that while the precise costs of
attorneys doing research manually likely could not be calculated, an estimate could be
developed.




                                                                      Office ofInspector General
                                                                                       1
                                                                            u.s lntcrrutiorul Trade Comm;s~';on
                                                     7
